Appendices

nt #: 6-0

Date Filed: 09/30/2020

•0?QrWfX

Page 1 of 1

fil-iQ

STATE OF MINNESOTA

September 15,2020

IN SUPREME COURT

OrFtC£QF
APPSMIE COURTS

A19-1790
Benjamin Mario Soto,

RECEIVED

Petitioner,

SEP 3 0 2020

vs.*

CLERK, U.S. DISTRICT COURT
ST. PAUL, MINNESOTA

AFSCME Union Council 5 Local 12181,
Respondent,
Minnesota Department of Human Services,
Respondent.
ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED THAT:
1.

The motion of petitioner Benjamin Mario Soto for leave to proceed in forma

pauperis be, and the same is, granted.
2.

The motion of petitioner Benjamin Mario Soto to correct the petition for

review filed on July 29,2020 be, and the same is, granted. The corrected pages to the petition
for review are accepted as filed as of August 24,2020.
3.

The petition of Benjamin Mario Soto for further review be, and the same is,

denied.
Dated: September 15,2020

BY THE COURT:

Lorie S. Gildea
Chief Justice

SCANNED
SEP 30 2020
yj, 01STRIGT COURT ST. PAUL

Case: 0:20-cv-01668-WMW-ECW

received
JUL 30 2020

Document#: 1-2

Date Filed: 07/30/2020

Page 1 of 6

STATE OF MINNESOTA
June 30, 2020

CLERK U.S. DISTRICT COURT
ST. PAUL, MINNESOTA

IN COURT OF APPEALS

Office or
ApPaiATECOURTS

A19-1790

Benjamin Mario Soto,
Appellant,

O^IDER OPINION
Ramsey County District Court
File No. 62-CV-l9-3770

vs.
AFSCME Union Council 5 Local 12181,
Respondent,
Minnesota Department of Human Services,
Respondent.

Considered and decided by Bratvold, Presiding Judge; Segal, Chief Judge; and Kirk,
Judge.*
BASED ON THE FILE, RECORD, AND PROCEEDINGS, AND BECAUSE:
1.

Pro se appellant Benjamin Mario Soto challenges a district court order

dismissing his claims against respondents AFSCME Union Council 5 Local 121811 (union)
and Minnesota Department of Human Services (DHS), after he was non-certified for
employment with DHS during his six-month probationary period.

* Retired judge of the Minnesota Court of Appeals, serving by appointment pursuant to
Minn. Const, art. VI, § 10.
1 The order states that the union is misidentified as “AFSCME Union Council 5 Local
12181” and is properly identified as Local “2181.”
SCANNED
JUL 31 -2020
U.S. DISTRICT COURT ST. PAUL

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-2

Date Filed: 07/30/2020

Page 2 of 6

'U'

2.

We review de novo a district court’s decision to dismiss a complaint under

Minn. R. Civ. P. 12.02(e) for failure to state a claim upon which relief can be granted.
ColumbiaCas. Co. v. 3MCo., 814N.W.2d 33,36 (Minn. App. 2012), review denied (Minn.
June 19, 2012). “When reviewing a case dismissed pursuant to Minn. R. Civ. P. 12.02(e)
..., the question before [an appellate] court is whether the complaint sets forth a legally
sufficient claim for relief.” Hebert v. City of Fifty Lakes, 744 N.W.2d 226, 229 (Minn.
2008). To be legally sufficient, a complaint must include more than just legal conclusions.
Id. at 235. In evaluating a motion to dismiss for failure to state a claim, the district court
is limited to “considering] only the facts alleged in the complaint, accepting those facts as
true, and . . . constru[ing] all reasonable inferences in favor of the nonmoving party.
Bodah v. Lakeville Motor Express, Inc., 663 N.W.2d 550, 553 (Minn. 2003). Documents
that are central to the parties’ claims and referenced in the complaint, such as contracts, are
deemed included within the pleadings. In re Hennepin Cty. Recycling Bond. Litig., 540
N.W.2d 494,497 (Minn. 1995).
3.

Soto’s due-process claims under the Fifth Amendment and Fourteenth

Amendment fail as a matter of law. Because DHS is a state agency and the Fifth
Amendment applies only to “the federal government or federal actions,” Soto has no cause
of action. Under the Fifth Amendment, a “federal action” is necessary “before there is any
deprivation of due process.” Junior Chamber of Comm, ofKansas City, Mo. v. Missouri
State Jr. Chamber of Comm., 508 F.2d 1031, 1033 (8th Cir. 1975) (quotation omitted).
And because Soto has no “legitimate claim of entitlement” with DHS amounting

2

to a

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-2

Date Filed: 07/30/2020

Page 3 of 6

_/

“property interest,” he is not subject to due-process protections under the Fourteenth
Amendment. Barnes v. City of Omaha, 574 F.3d 1003,1006 (8th Cir. 2009).
4.

Soto’s 42 U.S.C. § 1983 claim also fails as a matter of law. “Section 1983

provides a federal forum to remedy many deprivations of civil liberties, but it does not
provide a federal forum for litigants who seek a remedy against a State for alleged
deprivations of civil liberties.” Will v. Michigan Dept, of State Police, 491 U.S. 58, 66,
109 S. Ct. 2304, 2309 (1989). “[Njeither a state nor its employees acting in their official
capacity may be sued under 42 U.S.C. § 1983.” Carter v. Peace Officers Standards and
Training Bd., 558 N.W.2d 267,273 (Minn. App. 1997). Soto’s complaint names only DHS
as a defendant and therefore fails.
5.

Soto has alleged insufficient facts to support a failure-to-accommodate claim

under the Americans with Disabilities Act (ADA), and he has not exhausted his
administrative remedies. Soto does not allege that he was discriminated against because
he has a disability or that he sought any accommodation for a disability while employed
by DHS. See Ballard v. Rubin, 284 F.3d 957, 960 (8th Cir. 2002) (setting forth
requirements of ADA accommodation claim). In addition, Soto failed to assert that he
\

exhausted his administrative remedies, a prerequisite for bringing an ADA accommodation
claim. See Mclnerney v. Rensselaer Polytechnic Inst., 505 F.3d 135, 138 (2nd Cir. 2007)
(noting that accommodation claims brought under Title I of the ADA must satisfy statutory
prerequisite to exhaust administrative remedies); Randolph v. Rodgers, 253 F.3d 342, 347
n.8 (8th Cir. 2001) (“Title I of the ADA . . . require[s] exhaustion of administrative
remedies”).
3

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-2

Date Filed: 07/30/2020

Page 5 of 6

probationary employee shall notify the employee in writing with a copy to the Local Union
of the reasons for the non-certification. The Union shall have the right to challenge such
reasons through the third step of the grievance procedure.” Soto offers no facts to suggest
that the union did not represent him in accordance with the collective-bargaining agreement
because he was represented through the third step of the grievance process. See Sonenstahl
v. L.E.L.S., Inc[.], 372 N.W.2d 1, 5 (Minn. App. 1985) (stating that the duty of fair
representation is breached by a union when its conduct is “arbitrary, discriminatory or in
bad faith,” as “evidenced by fraud, deceitful. action or dishonest conduct”) (quotations
omitted)). Soto’s fair-representation claim is also untimely, because he did not assert it
within 90 days as required by law. See Allen v. Hennepin Cty., 680 N.W.2d 560, 563-65
(Minn. App. 2004) (recognizing a 90-day statute of limitations for fair-representation
claims brought under collective-bargaining agreement for public employees), review
denied (Minn. Aug. 17, 2004).
8.

On appeal, Soto may not allege new claims of judicial bias and may not add

new defendants. See Bodah, 663 N.W.2d at 553 (limiting consideration of motion to
dismiss for failure to state a claim to “only the facts alleged in the complaint”); Thiele v.
Stick, 425 N.W.2d 580,582-83 (Minn. 1988) (stating, “An appellate court may not base its
decision on matters outside the record on appeal, and may not consider matters not
produced and received in evidence below.”).
9.

Soto’s reply brief was docketed after the date the appeal was set for nonoral

consideration by this court. We have fully considered all of the parties’ submissions,
including Soto’s reply brief, in reaching our decision.
5

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-2

Date Filed: 07/30/2020

Page 6 of 6

IT IS HEREBY ORDERED:
1.

The district court’s order is. affirmed.

2.

Pursuant to Minn. R. Civ. App. P. 136.01, subd. 1(b), this order opinion will

not be published and shall not be cited as precedent except as law of the case, res judicata,
or collateral estoppel.
Dated: June 30,2020

BY THE COURT
Is/

Judge Michael Kirk

1

i

%

6

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3

Date Filed: 07/30/2020

Page 1 of

14

\

DISTRICT COURT

STATE OF MINNESOTA

JUL 30 2020

COUNTY OF RAMSEY

SECOND JUDICIAL DISTRICT

CLERK, U.S. DISTRICT COURT
ST. PAUL, MINNESOTA

CASE TYPE: Employment
Honorable Leonardo Castro
Court File No.: 62-CV-19-3770

Benjamin Mario Soto,
Plaintiff,

FINDINGS OF FACT,
CONCLUSIONS OF LAW,
AND ORDER

vs.
AFSCME Union Council 5 Local 12181, and
Minnesota Department of Human Services,

MOTION TO DISMISS

Defendants.

The above-entitled matter came on for hearing on August 16, 2019, before the Honorable
Leonardo Castro, Judge of Ramsey County District Court, on Defendants’ (AFSCME Union
Council 5 Local 12181 (“AFSCME”) and Minnesota Department of Human Services (“DHS”))
Minn. R. Civ. P. 12.02(e) Motions to Dismiss Plaintiff’s Complaint. Minnesota Solicitor General
Liz Kramer and Minnesota Assistant Attorney General Hillary A. Taylor appeared on behalf of
DHS. Joshua D. Hegarty, Esq., and Gregg M. Corwin, Esq., appeared on behalf of AFSCME.
Plaintiff was present and appeared pro se.
Based upon all the files, pleadings, records, proceedings herein, and the arguments and
submissions of the parties, the Court makes the following findings, of fact, conclusions

JUL 3 1 -2020

order:
FINDINGS OF FACT
1.

U.S. DISTRICT COURT ST. PAUL

Defendant DHS is a department of the State government of Minnesota with

independent authority over its own employees. Minn. Stat. § 15.01 (establishing that the DHS is

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 2 of

a department of state government); Minn. Stat. § 15.06, Subd. 6(2) (providing the commissioner
of each department with the authority to “appoint all subordinate employees and to prescribe their
duties”); Minn. Stat. § 245.03 (establishing DHS).
2.

Defendant AFSCME is a labor union and a party to a collective bargaining

agreement (“CBA”) with the State of Minnesota which determines the terms and conditions of
employment for state employees in bargaining units covered by the CBA. l
3.

Plaintiff Benjamin Mario Soto filed his Summons and Complaint against

Defendants on May 23,2019. Plaintiff is a former probationary employee of DHS, and was noncertified2 on February 14,2019.
4.

Plaintiff began his position as an Office and Admin Specialist Intermediate through

a pre-probationary appointment in DHS’s Health Care Eligibility Operations division as a part of

the Connect 7003 (“C700”) Program on July 25,2018.
5.

Plaintiff reviewed and signed an “Acknowledgement of At Will Employment” prior

to starting at DHS on July 13,2018.

6.

After four months, Plaintiff’s pre-probationary C700 position was converted to a

regular probationary appointment with the same job position and rate of pay, effective on
November 21,2018, with the expected end date of his six-month probationary period on May 21,
2019, per the AFSCME CBA.
:

1 Defendant AFSCME appears to be misidentified in the caption of this matter as AFSCME Union Council 5 Local
12181. The correct AFSCME Local should be 2181.
2 The term non-certified refers DHS’s'decision not to offer Plaintiff a permanent position due to alleged job
performance issues prior to the end of his probationary period.
3 Connect 700 allows eligible individuals with disabilities the opportunity to demonstrate their ability to perform a
specific position for up to 700 hours on the job. It is pre-probationary trial work program that undertakes a noncompetitive selection process for individuals with certain disabilities seeking employment in the classified service of
state government. htipW/mn oov/mmh/careers/diverse-workforce/people-with-disabilities/cormect700/

2

Case: 0:20-cv-01668-WMW-ECW

7.

Document #: 1-3
14

Date Filed: 07/30/2020

Page 3 of

On February 14, 2019, DHS notified Plaintiff that it would not be certifying or

converting his position to permanent status due to performance issues. PlaintifF s non-certification
occurred before he completed the probationary period and while he was still under at-will
employment. Plaintiffs official separation date from DHS was February 14,2019.
8.

In Plaintiffs February 14,2019 non-certification letter, DHS informed Plaintiff that

his non-certification was grievable through the third step in the grievance process, as identified in
the CBA.
9.

The CBA delineates AFSCME’s 4-step grievance process, stating that the third step

is a meeting with the employer, employee, and union representatives, and that arbitration of the
grievance is the fourth step, which is inapplicable here because it applies to permanent employees,
and not temporary, at-will employees.
10.

Plaintiff grieved his non-certification through the third step, and additionally

requested that AFSCME take his case to arbitration. On February 27, 2019, Plaintiff and
representatives of AFSCME met with representatives of DHS to hold a third-step grievance
meeting regarding Plaintiffs non-certification and removal from employment. At this meeting,
AFSCME representatives argued on Plaintiffs behalf that he should not be removed from
employment. Plaintiff also had the opportunity to speak on his own behalf at this grievance
meeting about why he should not have been removed from employment and did in fact do so.
Plaintiff contacted AFSCME on April 29, 2019, and asked why his grievance would not be
taken to arbitration. In response, he was informed that his employment was "at will" due to
being probationary and that the grievance would not be arbitrated. AFSCME informed Plaintiff
that the fourth step was not an applicable grievance step under the CBA.

;

3

Case: 0:20-cv-01668-WMW-ECW

11.

Document #: 1-3
14

Date Filed: 07/30/2020

Page 4 of

Plaintiffs claims all relate to his non-certification. He includes in his Complaint

and attachments various vague and broad allegations against DHS about false statements, lack of
accommodations, and violating his rights under the AFSCME collective bargaining agreement by
non-certifying him without “just cause,” even though he was a probationary employee. Plaintiff
also alleges that AFSCME and its union representative misrepresented him through the process of
his non-certification and separation from DHS.
12.

Plaintiff is pro se. His Complaint and supporting materials do not delineate specific

counts against Defendants. It appears that Plaintiff asserts against DHS a federal procedural due
process claim and an Americans with Disabilities Act (“ADA”) failure-to-accommodate claim.
Plaintiff also appears to bring a misrepresentation claim against AFSCME.
13.

Defendants moved to dismiss Plaintiff’s Complaint on the grounds that Plaintiffs

Complaint failed to state a claim upon which relief could be granted. Defendants supported their
motion with briefing pursuant to Minnesota Rule of General Practice 115.
CONCLUSIONS OF LAW
I.

Motion to Dismiss Standard
1.

Where a complaint fails to state a claim upon which relief can be granted, dismissal

with prejudice and on the merits is appropriate. Martens v. Minn. Mining & Mfg. Co., 616 N. W.2d
732, 748 (Minn. 2000).
2.

Under Minnesota Rule of Civil Procedure Rule 12.02(e), a party may move to

dismiss a claim in lieu of filing a formal answer to test the claim’s legal sufficiency. Barton v.
Moore, 558 N.W.2d 746, 749 (Minn. 1997). Consequently, only documents embraced by the
pleadings may be considered. In re Hennepin Co. Recycling Bond Litig., 540 N.W.2d 494, 497
(Minn. 1995). Documents that are central to the parties’ claims and referenced in the complaint

4

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 5 of

or counterclaim are embraced by the pleadings. Id. at 497 (“ [t]he court may consider the entire
written contract when the complaint refers to the contract and the contract is central to the claims
alleged”).
3.

When considering a motion to dismiss, the court must accept as true the factual

allegations contained in the pleading, construing all reasonable inferences in favor of the nonmoving party. Bodah v. Lakeville Motor Express, Inc., 663 N.W.2d 550, 553 (Minn. 2003).
However, the court is not bound by any legal conclusions asserted in the pleading. Bahr v. Capella
Univ., 788 N.W.2d 76, 80 (Minn. 2010). A sufficient complaint “requires more than labels and
conclusions.” Hebert v. City of Fifty Lakes, 744 N.W.2d 226,235 (Minn. 2008) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “[L]egal conclusions masquerading as factual
conclusions will not suffice to prevent a motion to dismiss.” Id. (internal quotations and citation
omitted). A district court may only dismiss a complaint under Rule 12.02(e) if “it appears to a
certainty that no facts, which could be introduced consistent with the pleading, exist which would
support granting the relief demanded.” Walsh v. U.S. Bank N.A., 851 N.W.2d 598, 602 (Minn.
2014) (quotation omitted).
4.

Minnesota Rule of Civil Procedure Rule 8.01 requires every complaint to contain

“a short and plain statement of the claim showing that the pleader is entitled to relief and a demand
for judgment for the relief sought.” Applying the Rule 8 standard, the Supreme Court stated in
Mumm v. Mornson that “[t]he complaint should put the defendant on notice of the claims against
him ” 708 N.W.2d 475,481 (Minn. 2006).

5

Case: 0:20-cv-01668-WMW-ECW

II.

Document #: 1-3
14

Date Filed: 07/30/2020

Page 6 of

Plaintiffs Claims Against DHS
A.

Procedural Due Process

5.

Plaintiff alleges that DHS violated his procedural due process rights under the Fifth

Amendment of the U.S. Constitution. Plaintiffs Fifth Amendment claims must be dismissed
because DHS is a state agency, and the Fifth Amendment only applies to federal actors. Barnes v.
City ofOmaha, 574 F.3d 1003,1005 n.2 (8th Cir. 2009) (“Fifth Amendment’s Due Process Clause
applies only to the federal government or federal actions^.]”); State v. Pluth, 195 N.W. 789, 790
(Minn. 1923).
6.

Plaintiff does not refer to the Fourteenth Amendment in his Complaint. However,

to the extent his Complaint appears to allege that DHS violated his due process rights under the
Fourteenth Amendment, he has failed to state a procedural due process claim. Plaintiff was an atwill, probationary employee without any constitutionally protected property interest in continued
employment with DHS.
7.

To bring a procedural due process claim, Plaintiff must first have a protected

property or liberty interest affected by the alleged violation. State v. Behl, 564 N.W.2d 560, 566
(Minn. 1997); Phillips v. State, 725 N.W.2d 778, 782 (Minn. App. 2007); see, e.g., Mclntire v.
State, 458 N.W.2d 714,718 (Minn. App. 1990) (dismissing due process claim when plaintiff failed
to “demonstrate an independent property interest”) (citing Bd. ofRegents ofState Colleges v. Roth,
408 U.S. 564,577 (1972)). Only those interests to which an individual has a “legitimate claim of
entitlement” are subject to due process protections. Roth, 408 U.S. at 577; Phillips, 725 N.W.2d
at 783. A “legitimate claim of entitlement” stems from state law or an independent source like a
contract which is sufficient to establish “mutual explicit understandings” of entitlement. Barnes,
574 F.3d at 1006 (internal quotation marks and citation omitted).

6

Case: 0:20-cv-01668-WMW-ECW

8.

Document #: 1-3
14

Date Filed: 07/30/2020

Page 7 of

Here, state law and the AFSCME CBA determine that Plaintiff did not have a

protected property interest in continued employment. State law provides that [t]here is no
presumption of continued employment during a probationary period. Terminations or demotions
may be made at any time during the probationary period subject to the provisions of this section
and collective bargaining agreements^” Minn. Stat. § 43A.16, Subd. 2. And nothing in the CBA
altered Plaintiffs status as a purely at-will probationary employee, although the CBA allows
probationary employees certain procedural processes to grieve non-certification.4 Plaintiff had no
protected property interest in continued employment; thus, Plaintiff s procedural due process claim
fails. See, e.g., WiUis v. State, No. C5-96-2289, 1997 WL 193894, at *1 (Minn. App. Apr. 22,
1997) (dismissing procedural due process claim because plaintiff as a probationary employee had
no protected property interest in continued employment”).
9.

Plaintiff argues that he had a property interest in continued employment because he

was a “just cause” probationary employee by virtue of moving from the C700 pre-probationary
status to probationary status for his position. However, “[t]o have a property interest in a benefit,
a person

must have more than a unilateral expectation of it. He must, instead, have a legitimate

claim to it.” Roth, 408 U.S. at 577. Plaintiffs attachment to his Complaint clearly shows that his
conversion ftom C700 pre-probationary status to probationary status on November 21,2018, was
considered at-will and “part of the selection process” to determine whether he would be able to
perform in the position sufficient to attain permanent employment status, pursuant to the applicable
AFSCME CBA.

4 Article 16 Section 5 of the AFSCME CBA states: “The appointing authority shall not discharge any permanent
employee without just cause.” There is no presumption of continued employment for probationary employees m the
CBA.

7

Case: 0:20-cv-01668-WMW-ECW

10.

Document #: 1-3
14

Date Filed: 07/30/2020

Page 8 of

Plaintiff also has no direct cause of action under the Fifth or Fourteenth

Amendments. Plaintiff’s federal constitutional claims are dismissed to the extent he is not
asserting them under § 1983. While an action may be brought under § 1983 to “‘vindicate rights
conferred by the Constitution,’ a party cannot assert a direct cause of action for a constitutional
violation.” Sanvee v. Hennepin Cty. Human Sen’s., No. CIV. 10-527 RHK/JSM, 2012 WL
4128388, at *14 (D. Minn. Aug. 13, 2012) (citing Wilson v. Spain, 209 F.3d 713, 715 (8th Cir.
2000)); see Wax’n Works v. City ofSt. Paul, 213 F.3d 1016,1019 (8th Cir. 2000).
B.

42 U.S.C. § 1983

11.

Plaintiff s federal constitutional claims against DHS fail as a matter of law because

a state and its agencies are not “persons” subject to suit under 42 U.S.C. § 1983. Will v. Mich.
Dep't ofState Police, 491 U.S. 58,71 (1989); Carter v. Peace Officers Standards & Training Bd,
558 N.W.2d 267,273 (Minn. App. 1997).
12.

To the extent Plaintiff is seeking damages under the Minnesota Constitution, those

claims must also be dismissed because stating a claim under § 1983 only involves alleged
violations “under the federal constitution or a federal statute.” Johnson v. Morris, 453 N.W.2d 31,
34 (Minn. 1990). Moreover, Minnesota does not have a § 1983 equivalent to seek damages for
alleged constitutional violations. See Mitchell v. Steffen, 487 N.W.2d 896,905 (Minn. App. 1992);
Birdv. State, Dep’t ofPub. Safety, 375 N.W.2d 36,40 (Minn. App. 1985). Nor does the Minnesota
Constitution provide a private cause of action for damages. See Riehm v. Engelking, 538 F.3d 952,
969 (8th Cir. 2008); Bird, 375 N.W.2d at 40. To the extent Plaintiff alleges any claims for damages
under § 1983 for state constitutional or statutory violations, those claims should be dismissed.5

5 Plaintiff cites a variety of sources as a basis for his claims, however, none are applicable to this case. Plaintiff has
no independent cause of action or viable claim under Minn. Const. Art. I, Sec. 8, or the Fifth Amendment or Article
VI of the United States Constitution. See Hoeft v. Hennepin Cty., 154 N.W.2d 717, 726 (Minn. App. 2008) (Mm

8

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 9 of

C.

ADA Failure-to-Accommodate

13.

Plaintiffs ADA claims must be dismissed because he failed to exhaust his

administrative remedies with respect to these claims. The ADA incorporates the administrative
procedures and requirements used-in Title VII matters. 42 U.S.C. § 12117(a); 42 U.S.C. § 2000e5(b), (f)(1); Hayes v. Blue Cross Blue Shield of Minn., Inc., 21 F. Supp. 2d 960, 969 (D. Minn.
1998). In order to initiate a lawsuit under the ADA against his employer, a plaintiff is first required
to exhaust his administrative remedies. See 42 U.S.C. § 12117(a); 42 U.S.C. § 2000e-5(b), (e),
(f)(1). Exhaustion requires (1) timely filing a charge of discrimination with the EEOC setting forth
the facts and nature of the charge and (2) receiving notice of the right to sue. Williams v. Little .
Rock Mun. Water Works, 21 F.3d 218, 222 (8th Cir. 1994). “Exhaustion of administrative
remedies is central to [the ADA’s] statutory scheme because it provides the EEOC the first
opportunity to investigate discriminatory practices and enables it to perform its roles of obtaining
voluntary compliance and promoting conciliatory efforts.”6 Id.
14.

Here, Plaintiff does not allege in his Complaint that he filed a charge of

discrimination or received a right-to-sue letter regarding his ADA failure-to-accommodate or
discrimination claims. Thus, Plaintiff has failed to exhaust his administrative remedies prior to
filing this lawsuit, and his ADA claims are dismissed.
15.

Alternatively, Plaintiff has failed to allege sufficient allegations to state an ADA

failure-to-accommodate claim. To successfully allege a failure-to-accommodate claim under the
ADA, a plaintiff must show that the employer had knowledge of his disability, the employee

Const Art. I, Sec. 8, “is not a separate and independent source of legal rights,” nor does it guarantee a redress for
every wrong); Armstrong v. Exceptional ChildCtr., Inc., 135 S. Ct. 1378,1383-85 (2015) (finding Supremacy Clause
was not a private litigant’s “source of any federal rights, and certainly does not create a cause of action).
6 Williams analysis in the context of Title VIL is applicable here, since “[b]y its terms, the ADA incorporates several
of the ‘powers, remedies, and procedures,’ of Title VII... into its own regulatory scheme.” McKenzie v. Lunds, Inc.,
63 F. Supp. 2d 986,1000 (D. Minn. 1999); see 42 U.S.C. § 12117(a).

9

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 10 of

requested accommodations or assistance for his disability, the employer failed to make a good
faith effort to assist the employee in seeking accommodations, and the employer could have
provided a reasonable accommodation but for lack of good faith. Ballard v. Rubin, 284 F.3d 957,
960 (8th Cir. 2002); see Scheiderich v. City of Minneapolis, Case No. C8-00-185, 2000 WL
1051976, at *2-3 (Minn. App. Aug. 1, 2000). Plaintiffs Complaint failed to establish a prima
facie case: Plaintiff failed to show how he was discriminated against based on his purported
disabilities, whether he made an accommodation request, whether DHS failed to make a good faith
effort to assist Plaintiff in seeking accommodations, and whether DHS could have provided a
reasonable accommodation but for lack of good faith. Thus, this claim is dismissed.
D.

Collective Bargaining Agreement Provides the Exclusive Remedy

16.

Because Plaintiffs exclusive remedy regarding his non-certification was to follow

the grievance procedure in the CBA, his claims regarding the same fail as a matter of law. Under
Minnesota law, if a plaintiffs areas of dispute are subjects encompassed by the applicable CBA
and its grievance processes, then the CBA provides the sole remedy. White v. Winona State Univ.,
474 N. W.2d 410,412 (Minn. App. 1991) (“widely-accepted rule” in Minnesota that “if a grievance
procedure within a collective bargaining agreement is intended to be the exclusive remedy for an
employee’s claims, employees cannot bring actions in state or federal court for breach of
contract”).
17.

The employment issues about which Plaintiff complains—non-certification and the

grievance process—are terms and conditions of employment under the CBA. The CBA contains
a grievance procedure when a probationary employee is non-certified, which provides the Union
a right to challenge the reasons for a probationary employee’s non-certification “through the third
step of the grievance procedure.” AFSCME CBA, Article 12, Section 10.F. Plaintiff, even as a

10

'

Case: 0:20-cv-01668-WMW-ECW

Document#: 1-3
14

Date Filed: 07/30/2020

Page 11 of

probationary employee, as a member of AFSCME, could grieve his non-certification and pleads
that he did so. Thus, the Court has no basis to extend judicial review over Plaintiffs contract
claims. Willis, 1997 WL 193894, at *2 (finding no basis to extend “direct judicial review for an
alleged breach of the collective bargaining agreement,” in . a case with a plaintiff under
probationary employment).
HI.

Plaintiffs Claim Against AFSCME

i

A. Breach of Duty of Fair Representation
18.

Plaintiff generally alleges in the Complaint that AFSCME misrepresented him

but does not reference the "duty of fair representation." Minnesota courts have recognized that
a union who is an exclusive employee representative owes a duty of fair representation to the
employees who it represents. See Eisen v. State, Dep't of Public Welfare, 352 N.W.2d 731,
735, (Minn. 1984) ("The judicially created doctrine of a duty of fair representation is derived
from a union's statutory right to act as the exclusive bargaining representative of all employees
in a designated bargaining unit."). To the extent that Plaintiff asserts a claim against AFSCME
for failing to represent him, such claim must be evaluated as a claim that AFSCME has
breached its duty of fair representation.
19.

In order to establish a violation of the duty of fair representation, an employee

must show that the exclusive representative engaged in conduct which is 'arbitrary,
discriminatory, or in bad faith." Whipple v. Independent School Dist., 424 N.W.2d 559, 565,
(Minn. Ct. App. 1988). Plaintiff has not alleged that any action of AFSCMEs was arbitrary,
discriminatory, or in bad faith, such that Plaintiffs claims against AFSCME must be
dismissed. “To establish abreach of that duty [of fair representation] requires proof of arbitrary
or bad faith conduct on the part of the union by ‘ substantial evidence of fraud, deceitful action

11

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 12 of

or dishonest conduct.’” Davis v. Boise Cascade Corp., 288 N.W.2d 680,683, (Minn. 1979)
(quoting Amalgamated Ass’n ofSt., Elec. Ry. & Motor Coach Employees v. Lockridge, 403
U.S. 274 (1970). The only conduct Plaintiff has alleged related to any dishonest conduct is the
allegation that AFSCME representatives were dishonest with him in informing him that his
employment was "at will" and he could be removed from employment at any time. Plaintiff
has alleged a legal conclusion regarding his rights to continued employment which this Court
is not obligated to accept as true on a motion to dismiss. Bahr v. Capella University, 788
N.W.2d 76, 80 (Minn. 2010).
20.

Minnesota law provides that "There is no presumption of continued employment

during a probationary period. Terminations or demotions may be made at any time during the
probationary period subject to the provisions of this section and collective bargaining
agreements." Minn. Stat. § 43A.16, Subd. 2. A probationary employee of the State of
Minnesota may clearly be removed from employment at any time during the probationary
period unless otherwise limited by a collective bargaining agreement.
21.

The CBA between AFSCME and the State of Minnesota specifies that "The

Appointing Authority shall not discharge any permanent employee without just cause."
While permanent employees are protected from termination "at will," nonpermanent
employees, such as probationary employees, are not so protected.
22.

AFSCME's conduct in informing Plaintiff his employment was "at will" was

not "arbitrary, discriminatory, or in bad faith" or "fraud, deceitful action or dishonest
conduct." AFSCME representatives could not, and should not, have argued that "just cause"
was required for Plaintiff to be removed from employment. AFSCME correctly informed

12

Case: 0:20-cv-01668-WMW-ECW

Document#: 1-3
14

Date Filed: 07/30/2020

Page 13 of

Plaintiff of his rights with respect to continued employment and engaged in conduct as
authorized by the CBA in an attempt to keep Plaintiff in his position with DHS.
23.

Further, any claims made by Plaintiff that AFSCME has failed to represent him

are barred by the applicable statute of limitations for such a claim. The "duty of fair
representation" is a judicial doctrine derived from a union's statutory right to act as the
exclusive representative of the employees it represents. Eisen v. State, Dep't of Public
Welfare, 352 N.W.2d 731, 735 (Minn. 1984). Minnesota courts have established that in a
matter such as this, where a former employee brings a claim against a public employer for
wrongful discharge and against a union representative for a breach of the duty of fair
representation, such claims must be brought within 90 days. Allen v. Hennepin County, 680
JjJ>V.2d 560, at 563, (Minn. Ct. Add. 20041This 90-day period begins to run at the time that
the former employee "knew or should have known of the union's breach." Id Plaintiff s
response to AFSCME’s motion to dismiss specifically references the February 27, 2019
grievance meeting as an instance in which AFSCME failed to represent him, by informing
him that his employment was "at will" and failing to argue that "just cause" was required for
his termination. Plaintiff served his Summons and Complaint on AFSCME after the 90-day
.
period had expired.
M A/\ i
S7
■ 2.
*-z?3
lytridl
V/i-tPi itW
M./oJ
C ( ^<1 A.?24.
Plaintiff has failed to state a claim that he was entitled to some form or level of
representation from AFSCME that he did not receive. He has also failed to state a claim that
AFSCME’s representation was arbitrary, discriminatory, or in bad faith. Plaintiff has failed
to state a claim that AFSCME failed to adequately represent him and no facts could be
introduced which would support such a conclusion. As such, dismissal of this claim is
appropriate. Bahr v. Capella University, 788 N.W.2d 76, 80 (Minn. 2010).
13

. ‘'

Case: 0:20-cv-01668-WMW-ECW

Document #: 1-3
14

Date Filed: 07/30/2020

Page 14 of

ORDER
1.

Defendant DHS’s Motion to Dismiss Plaintiffs Complaint is GRANTED;

2.

Defendant AFSCME’s Motion to Dismiss Plaintiffs Complaint is GRANTED;

3.

Plaintiffs Complaint is DISMISSED with PREJUDICE.

4.

The attached Findings of Fact and Conclusions of Law are incorporated herein.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Y /HE COQJRT/r
Dated: September 10,2019
Tn® Honorable Leonardo Castro
DistHdt Court Judge

!
I

14

